SUPREME COURT

DEC 3 2019
Jorge Navarrete Clerk
S259157
Deputy

IN THE SUPREME COURT OF CALIFORNIA

LANCE R. MARTIN, Petitioner,
v.
CALIFORNIA DEPARTMENT OF CORRECTIONS AND REHABILITATION,
Respondent;
C. GIBSON, Real Party in Interest.

The above-entitled matter is transferred to the Court of Appeal, Fourth Appellate
District, Division One.

CANTIL-SAKAUYE
ChiefJustice

COURT OF APPEAL, FOURTH APPELLATE DISTRICT

Court of Appeal
Fourth Appellate District

FILED ELECTRONICALLY

DIVISION ONE

09/26/2019
Kevin J. Lane, Clerk
By: Michael Hubbard

STATE OF CALIFORNIA

LANCE R. MARTIN,
Petitioner,

D076408
(San Diego County
Super. Ct. No. HSC11352)

v.
CALIFORNIA DEPARTMENT OF
CORRECTIONS AND
REHABILITATION et al.,

!

Respondents.

THE COURT:
The petition for writ of mandate and the petition for writ of habeas corpus have been
read and considered by Justices Huffman, Haller, and O'Rourke. Petitioner is not entitled
to relief by writ of habeas corpus because he has been released from prison and discharged
from parole. (People v. Villa (2009) 45 Cal.4th 1063, 1069; People v. Kim (2009) 45
Cal.4th 1078, 1108.) Petitioner is not entitled to relief by writ of mandate because he has
a plain, speedy, and adequate remedy in the ordinary course of law by civil action. (Code
Civ. Proc., § 1086; Flores v. Department of Corrections & Rehabilitation (2014) 224
Cal.App.4th 199, 205^206.) The petitions are therefore denied.
HUFFMAN, Acting P. J.
Copies to: All parties

FILED

1

SAN DIEGO SUPERIOR COURT

2

AUG 2 2 2019

3

CLERK OF THE SUPERIOR COURT
D. DICCION________
BY:

4
5
6
7
8

THE SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

IN AND FOR THE COUNTY OF SAN DIEGO

10

IN THE MATTER OF THE APPLICATION OF: )
)

) HSC 11352

11
12
13
14
15
16

LANCE MARTIN
Petitioner.

)
)

) ORDER DENYING PETITIONS FOR
) WRIT OF HABEAS CORPUS
)
)

AFTER REVIEWING THE PETITIONS FOR WRIT OF HABEAS CORPUS IN
THE ABOVE-REFERENCED MATTER, THE COURT FINDS:

17

On July 17, 2019 petitioner filed what he captioned a petition for writ of mandate.

T;8

Petitioner complains that while he was on parole and housed in a California Department

19

of Corrections and Rehabilitation (CDCR), parole independent living facility, CDCR

20

telepathically controlled persons in the facility with an electronic monitoring device to

21

cause them to contaminate food, water, and bedding used by petitioner and others.

22

Petitioner claims he sought administrative review, but CDCR did not respond to his

23

appeal. He claims that even though he has been discharged from parole, CDCR is still

24

electronically monitoring him to run their poisoning operation.

25

As an initial matter, even though petitioner has titled his petition as one for writ of

26
27
28
ORDER-1

1

mandate1, the claims relate to conditions of parole and as such, the court construes the

2

petition as a petition for writ of habeas corpus. (In re Jones (1962) 57 Cal.2d 860;

3

People v. Picklesimer (2010) 48 Cal.4th 330, 341.)

4

On August 9, 2019 petitioner filed a petition for writ of habeas corpus seeking

5

relief from illegal government electronic surveillance without probable cause or court

6

order.

7

The petitions are denied.

8

Penal Code section 1473(a) provides: “Every person unlawfully imprisoned or

9

restrained of his liberty, under any pretense whatever, may prosecute a writ of habeas

10
11
12
13
14
15

corpus, to inquire into the cause of such imprisonment or restraint.”
Every petitioner, even One filing in pro per, must set forth a pnma facie statement
of facts that would entitle him to habeas corpus relief. (In re Bower (1985) 38 Cal.3d
865, 872; In re Hochberg (1970) 2 Cal.3d 870, 875 fn 4.) The petitioner then bears the
burden of proving the facts upon which he bases his claim for relief.

(In re Riddle

(1962) 57 Cal.2d 848, 852.) Vague or conclusory allegations do not warrant habeas
relief. (People v. Duvall (1995) 9 Cal.4th 464, 474.) The petition should include copies of

16
“reasonably available documentary evidence in support of claims . .
17
18
19
20

(Id.)

July 17. 2019 Petition
Petitioner includes a copy of his parole discharge ID card which indicates that
petitioner was discharged from the jurisdiction of the CDCR on April 9, 2019. Because
petitioner is no longer on parole under the jurisdiction of CDCR and no longer living in

21

parole housing he is not restrained of his liberty by CDCR and cannot seek habeas

22

corpus relief.

23

August 9, 2019 Petition

24

Petitioner has failed to set forth a prima facie statement of facts establishing his

25

right to habeas corpus relief on the basis of an unlawful restraint on his liberty. The

26
27
28

1 Even if construed as a petition for writ of mandate, petitioner has not complied with the proper filing for requirements
for a petition for writ of mandate.

ORDER-2

1

issue of which he complains are not properly address on petition for writ of habeas

2

corpus.

3

Pursuant to the foregoing, the petitions are denied.

4

A copy of this. Order shall be served upon petitioner.
IT IS SO ORDERED.
DATE: #{£&(( 1

5
6

,yj /STEPHANIE S0NTAG6)
JUDGE OF THE SUPERIOR COURT

7
8
9
10

1

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
ORDER-3

Additional material
from this filing is
available in the
Clerk's Office.

